Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




 STATE MEDICAL .BOARDS AND                -   ..7




   QUALITY-OF-CARE CASES:
   PROMISING APPROACHES




                                                    .




                         A




             FEBRUARY   1993
                      OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is earned out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.’

                          OFFICE OF        AUDIT SERVICES
The OIGS Office of Audit Setices (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carxyingout their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and                  .-
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUA~ON                    AND INSPECITONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., the Regional
Inspector General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region,
Office of Evaluation and Inspections. Participating in this project were the following people:

Boston Region                                               Headquarters
David Veroff, l?roject Leader                               Alan Levine
David Schrag, Lead Analyst

For additionalmpies of this repo~ pkase contact the Boston Regional Office at
(617) 565-1050.
Department of Health and Human Services

       OFFICE OF

  INSPECTOR GENERAL




 STATE MEDICAL BOARDS AND

   QUALITY-OF-CARE CASES:

   PROMISING APPROACHES





           .




        FEBRUARY   1993   OEI-01-92-()()()50

.
              EXECUTIVE                           SUMMARY

PURPOSE

The purpose of this inspection is to help States address cases involving physicians who
provide poor-quality medical care. It describes promising approaches to such cases
that have been taken or being considered by medical boards.

BACKGROUND

Quality-of-care (QC) cases are     among the most difficult types of cases for State
medical boards to address. In     the course of our ongoing inquiry into the work of State
medical boards, it has become     clear to us that many are beginning to devote greater
attention to QC cases. In this    report, we focus on that experience with the intent of
identifying specific approaches   that appear to be worthy of further attention by boards.
                                                                                             .—
In determining what to characterize as a promising approach, we depended on (a) the
judgments of the State officials with whom we conversed; (b) a review of their
experiences in dealing with these approaches; (c) a focus group discussion with the
executive directors of eight medical boards; and, drawing on our own years of
experience in reviewing medical and other health care boards, (d) our judgment of
whether an approach is sufficiently different and important to warrant the attention of
those in other States.

Our research consisted of field visits to nine States, telephone calls with agency
officials in nine States, informal discussions with knowledgeable parties, and a review
of available literature.

We organize the promising approaches according to the four phases of pursuing QC
cases: identification, investigation, negotiation/prosecution, and intewention. We also
include a section on the prevention of quality problems. The following briefly
describes all of the promising approaches included in the report.

IDENTIFICATION

How can State rndical boards get comphte and tihdy &ckure of qualityofxare
pmb~    ~ “          @m reliable sources such as peezs and government agencks?
@age

  �    Enforce practitioner repo~ng requirements
  �    Increase awareness of reporting requirements
  �    Improve repom”ngfiorn Peer Review O~anizations (PROS) and Medicaid agencies
  �    Randomly audit pharmacy recorh
  �    Get refemak from survey agencies
  �    Require repo~”ngjiom medical schook and restiency programs.


                                              i
How can S&zte&al        bd      that receive a hge number of complkti d&i@uiYh
sz”gnijic~ actionable quality probknu @m tir       or nonmdoribus issues? @age 6)

  .   Establish formal prioritization scoring�
  �   Use contract physicians or stajf nunes to set priorities among complaints�
  .   Recruit local physicians to seine on advkory committees by offering them CME�
      credits
  *   Gather a board panel to screen complaints
  �   Prion”tizeinvestigation of malpractice claims

INVESTIGATION

How can State mtdicd boanh gather su@ient and credible evidexg         pawdy       to
demonstmte multiple pmbkms or hcom~tence? @age 8)

  �   Conduct practice reviews in response to complaints
  �   Review a lage number of patient recor&                                              .—
  9   Use information from hospitah
  �   Get patient names from Medicaid
  s   Have physicians take competency exams
  �   Request information from PROS
  �   Measure competence directly

How can State medkal beam% ihvolve medkallj trained people in ikwstigations?
@age 10)

  9   Have physicians on staff�
  �   Use committees from the medical society to conduct investigations�
  9   Use nunes and physician asstitants as investigation�
  �   Conduct intensive medical training for investigation�
  .   Pay consultants the going rate�
  .   Make an�intensive recmiting effort to get medical experts
  .   Involve PROS in investigations

How can State medibal boamk assure    that the   imwtigative proazw h timely? (page 12)

  o   Require physicians to respond to requests in a timely manner
  *   Establish legidative requirements for turnaround of investigations
  �   Use paraprofessional staff to gather medical recorh

How can Stab medical boanis assure that they are neither pnxecuting casm that have no
merit nor &missing important cases? @age 13)

  .   Have cases screened by two medical reviewem prior to deciding to pursue cases
      ~her



                                            ii
  �   Gather review paneh with medica~ lega~ and investigative expernke to dhpose of
      cases
  �   tiepare a handbook to guide peer reviewem

NEGOTIATION/PROSECUTION

How can State medical boanik get reguku access to prvsecutihg attorneys and heaing
o~em who have the knowkdge and skilk necessary 10 hantik quality-ofxare caws?
@age 14)

  .   Have attorneys and hearing oficem on stafl
  �   Have attorneys dedicated to medical board cases
  �   Train bean’ng oficen to hear medical board cases

HOWcan Stite &al      boati    encourage and facilitate fair and ejfective consent
agre~?     (’page 15)
                                                                                       —
  �   Settle minor cases before fidl investigation
  �   Get board memben, especially physicians, involved in settlement negotiations
  .   Draw up consent agreements before meeting with respondents
  �   Require mediated settlement conferences for certain cases
  �   Establish the facts in advance of negotiating a sanction
  �   Write detailed consent agreements and make them public

What can Sttzternezikal boanik do to emure that W      eqxnt witnesses pmti     ck,
crdibk testimony at heatigs? @age 17)

  �   Get testimony jiom two physicians with diflerent pempectives
  �   Provide clear instructions for expert reviewen
  �   Emphasize the potential duty to testi~ when soliciting expert opinions
  �   Recwit highly respected experts by paying them well

How can State medkal board pmsecutms atubfih prevaiiikg sttmddids of care in
addiiion to pmvidbzg expert witneiw testimony? @age 18)

  .   Have a practitioner in the respondent% specialty on the hearing panel
  .   Refer to written practice parameten as they become available

How can State @al      boati   ensure timeliness ti hearings and &ckions? (page 19)

  .    Limit the number of board membem required for hearings
  �    l?rovide hearing committee membem with advance background information
  �    Impose time limits on hearings and judgments
  �    Rabe objections to iwe!evant arguments brought up by defense attorneys
  �    Conduct pre-hearing conferences and adhere to timeframes


                                            ...
                                            m
INTERVENTION

U?@   can State mexiida[ boarzk h to express their concern about the quality of care
pmvidd other than p-g        formal sanctiims? @age 21)

  �    Hold an off-the-record discussion between the physician and one or more board
       membem, physician staff membem, or expert consultants
  �    Write an educational letter to the physician explaining the boardk concern

How can State medical boamk adibzw educational interventiims and munitorihg
P~      forphysichns whom they have dk@ihed? @age 22)

  .    Refer physicians to individually-tailored educational programs
  s    Grant immunity to probation monitom
  �    Use community hospitals as retraining sites

PREVENTION                                                                                    .-

W%atcan Stati medkal boarak do to makz physkians aware of boundmiis of acceptabk
care k certati arew of wiikspread or egregious pmbkms? (page 23)

  �    PubliM detailed anonymous descriptions of important cases�
  �    Conduct educational programs�
  �    Use newsiettem to licensees to dimss important iwues�

How can St@te medical boati id2nt@ and adinm quality-of<are pmblenzs when
P@­ .    are tioiktd @m the mdcal community or when they have undetected
de@um&s b Wpt@omumce?          @age 24)

  .   Conduct periodic reexamination of physicians
  �   Audit the practices of tiolated physicians

CONCLUSION

In closing, we must note that there are two factors that in all States are indispensable
to successful pursuit of QC cases. One is adequate funding. If boards are to handle
Qccases
    effectively, it is widely recognized that they must have access to a wide range
of medical, legal, and investigatory expertise and to computer and other resources.
The other factor, which may be the most important of all, is having sufficient will to
make a serious, ongoing commitment to QC cases. State legislators, executives, and
board members must recognize that a more activist board posture in addressing QC
cases will generate some controversy and some pressures to pull back. At such times,
they must provide boards with the support necessary to persevere in carrying out their
responsibilities to the public.




                                             iv
                     TABLE                                      OF CONTENTS

                                                                                                                                                                                                                                                         PAGE

EXECUTIVE         suMMARY


INTRODU(XION           .........          ..            0.0..                   .     .        .       .   .   .   .   .    .        .       .      .   .   .   .   .       .   .   .       .       .   .   .        .       .   .   .   .       .   .     .   .   .    1

PROMISING         APPROACHES

   Identificati      o n. . . . . . . .   �    �        �       �   �   �   �   �     ..00..                           .    ...0..                              �   o*....                              �   .        .       .   .   .   .       .   .     .   .   .    4

   Investigation     ..........           ..            0..0.                   �     *.....                           .    ..*...                              �   ...*..                              �   0.....                               .   .     .   .   .    8

   Negotiation/Prosecution          ..    .    .        .       .   .   .   .   .0,                    .   .   .   .   .    ..*.*.                              .   .   .       .   .   .       .       .   ...0..                           ..*.                      14
                                                                                                                                                                                                                                                                         .—
   InteNention      ...........           .    .        .       .   .   .   .   .     .        .       .   .   .   .   .    .        .       .      .   .   .   .   .   ...*.                           .   .        .       .   .   .   .   ..*O                      21

   Prevention. . . . . . . . . . . .      .0            .0...                   .0             .0...                   .    .        .       ...*               .   .   .       .   .   .       .       .   .        .       .   .   .   .   .       .     .   .
                                                                                                                                                                                                                                                                       23-

CONCLUSION          ...........           �    0....0                           .     .        .       .   .   .   .   .0            ..0..                      .   .   .       .   .   .       .       .   .        ...*.                   .       ..0
                                                                                                                                                                                                                                                                       25

APPENDICES

   Related Reports fkomthe OfEice of Inspector General . . . . . . . . . . . . . . . . A-1

   Medical Boards Mentioned in This Report..                                                                           . . . . . . . . . . . . . . . . . . . . . . . B-1
                              INTRODUCTION

    PURPOSE

    The purpose of this inspection is to help States address cases invoking poor-quality
    medical care. It describes promising approaches to such cases that have been taken
    or are being considered by medical boards.

    BACKGROUND

    State medical boards provide a vital front line of protection for the millions of peopie
    who receive medical care including those in the Medicare and Medicaid programs.
    They determine whether or not a physician meets the minimum necessary
    qualifications to practice medicine. And through their enforcement of State medical
    practice acts, they identi~ and take action against physicians responsible for poor-       .—
                                                                                                .
    quality care, unprofessional behavior, and other violations of these acts.

    Because of the boards’ significance to quality medical care, we have since 1986 issued
    many reports addressing their performance (see appendix A). In these reports, we
    have made it quite clear that quality-of-care (QC) cases are among the most difficuh
    types of cases for boards to address. They tend to be complex, time-consuming,
    expensive, and controversial. Accordingly, boards are often inclined to avoid or
    downplay such cases.l

    Many others who have reviewed the performance of boards have reached similar
    conclusions. Illustratively, at a 1991 conference sponsored by the Agency for Health
    Care Policy and Research in the Department of Health and Human Semites, an
    expert panel found boards to be severely lacking in how they address QC cases.2
    They offered several suggestions, but made it clear that much remains to be learned in
    this area.

    In the course of our ongoing inquiry into the work of State medical boards, it has
    become clear to us that many are beginning to devote greater attention to QC cases.
    Their efforts are sometimes tentative and invariably incremental; no one board that
    we are aware of seines as a comprehensive model for how to address QC cases from
    beginning to end. Yet the boards, it seems to us, are gaining some valuable


        lMark R Yessian, “State Medical Boards and Quality Assurance,” Federafr”on
                �




    Bulletin, September 1992, pp. 126-135.

        2EIeather Palmer, “Professional Review Sanctions,” in Agency for Health Care
    Policy and Research, Issues in Medical Liability: A Working Conference (Summa~
    Report), Washington: Government Printing Office, 1991, pp. 51-56.


                                                1



—
     experience which can be of enormous significance in learning how to approach these
     cases more efficiently and effectively.

     In this report, we focus on that experience with the intent of identifying specific
     approaches that appear to be worthy of further attention by State boards. We cannot
     be sure that all of the approaches we describe have in fact been successful, as
     objective evaluation criteria and hard data are almost always lacking. Indeed, some of
     the approaches we describe have never been tested in any States. Furthermore, we
     recognize that what appears to work in one State w-illnot necessarily work in another,
     given the great variations among the States.

     Even with these limitations, however, we expect that a compendium of approaches
     that we deem promising will be helpful to State legislators, executives, board officials,
     and others as they consider ways in which they might improve a State’s capacity to
     address QC cases. Our aim is to stimulate ideas and exploration, not to present a
     blueprint for action.

     We list many approaches, each in a succinct manner. State officials are likely to find      ‘-
     them to be most helpful if they consider them in the context of their own State’s
     overall system for addressing QC cases.

     To facilitate such consideration we organize the promising approaches by five major
     sections and in each include statements of pertinent issues and questions. The first
     four sections are sequential phases associated with the pursuit of QC cases:

       �    Identification -- learning about physicians who might be responsible for poor-
            quality medical care and deciding which complaints merit further study.
       �    Investigation -- obtaining the pertinent facts and deciding whether to pursue
            discipline or other actions.
       �    Negotiation/Prosecution   -- using evidence and testimony, in either a formal or
            informal setting, to establish that one or more violations of State law occurred.
       �    Intervention -- imposing an appropriate remedy in response to proven or
            admitted violations.

     The final section focuses on the prevention of quality problems and includes efforts to
     educate and otherwise avert or minimize QC problems.

     METHODOLOGY

     In determining what to characterize as a promising approach, we depended on (a) the
     judgments of the State ofilcials with whom we conversed; (b) a review of their
     experiences in dealing with these approaches; (c) a focus group discussion with the
     executive directors of eight medical boards; and, drawing on our own years of
     experience in reviewing medical and other health care boards, (d) our judgment of
     whether an approach is sufficiently different and important to warrant the attention of



                                                 2



——
those in other States. These are certainly qualitative criteria.   Their effectiveness will
depend on the reactions of those reading this report.

In selecting the States from which we identified promising approaches, we drew again
on our own experience, on a review of available literature, on information obtained
from many national conferences concerning health care quality assurance, and on word
of mouth. We did not seek to establish that these States were the “best” in handling
QC cases. We sought States having some specific procedures, laws, or styles that
might be instructive to a wider audience and that reflect some balance in terms of size
and geography. Given that orientation, we conducted the bulk of our research during
site visits to nine States: California, Maryland, Minnesota, New York, Ohio, Rhode
Island, Texas, Vermont, and Wisconsin. We also talked by telephone to agency
officials in the following nine States: Arizona, Arkansas, Florida, Massachusetts,
Michigan, Nevada, North Carolina, Oregon, and South Carolina (see appendix B for a
list of the boards’ telephone numbers and addresses).

During our site visits, we typically spoke with executive, investigative, medical, and
legal staff involved with QC cases. In some States, we spoke with board members and ‘-
State attorneys as well. We also examined laws, documents, and individual case
records. In each State, we sought a thorough understanding of the board’s procedures
for handling QC cases.

We conducted this study in accordance with the Inten”m Standard       for Impactions
issued by the President’s Council on Integrity and Efficiency.




                                             3
                           IDENTIFICATION

ISSUE           state medical boards need to receive good information about quality-of-
                care problems. The bulk of complaints to boards come from consume~
                but reports tiom medical professionals may be more likely to indicate
                violations of medical practice acts.

QUES7TOJW How can State medkal boamk get compide and timely disckure of
          W@*f~~e      Pmb~      p artud@
                                      “    @m reliable soumm such m peem
          and government agencies?

PROMISING APPROACHES:
                                                                                                     >
  �     ENFORCE PRACTITIONER                                                                         /
        REPORTING REQUIREMEN7X                     \       E.NFORCRVG      A ‘SMTCHLAW               1
        Minnesota, like many other States,                                                           ~.7
                                                      In January 198~ the Minnesota Board of
        has a law that requires health care
                                                      Medical fiaminers    dkciplined three
        practitioners who have personal              physicians for failing to report to the board
        knowledge of violations of the                a colleague who was “habituated to a dug
        medical practice act to report these          or intw”canL” The discipline included
        incidents to the board. Unlike most           reprimands and fines up to $7500.
        other States, Minnesota has shown a        *L
        willingness to enforce this law (see
        box). Since 1987, according to the board, reporting from licensed health care
        professionals has increased significantly.

  �	    INCREASE AWARENESS OF REPORTING REQUIREMENTS:                       Staff from
        the Ohio medical board attend county medical society meetings, conferences,
        and courses and make presentations to try to facilitate referrals. These
        presentations include information about anonymity, immunity, and the amount
        of documentation and narrative required for reports. Ohio officials are hoping
        that this new program, by improving understanding of the law, will increase
        reporting from physicians.

  �	    IMPROZE REPORTING FROM PEER REP7EW ORGANIZATIONS AND
        MEDICAID AGENCIES:           In both New York and Ohio, when the Peer Review
        Organization (PRO) determines that a physician’s mismanagement has caused
        significant adverse effects to a patient, the PRO refers that case to the medical
        board.3 In 1991, the New York PRO referred 100 cases to the board. Thirty-


    30ur draft report entitled “The Peer Review Organizations and State Medical
Boards: A Vitai Link’ (OEI-01-92-00530) recommends that all peer review
organizations submit this level of information to medical boards. Most PROS
currently do not because they are concerned about confidentiality.


                                                  4
     four of these spurred investigations. In Ohio, approximately 2 percent of the
     1,654 complaints received in 1990 were from the PRO. In addition, these
     States’ Medicaid agencies release to the boards information on overprescribing,
     presumed overutilization, and excessive use of invasive testing and procedures.

.•   RANDOMLYA UDiT PH4R.M4CY RECORDS: North Carolina conducts
     frequent random audits of pharmacy records. Pharmacies with computerized
     systems are able to print out records, by physician, of prescriptions filled.
     Although designed to detect illegal drug diversion and other misuse of
     controlled substances, these audits can also indicate quality problems with
     physicians. Because the audits need not be spurred by distinct complaints, they
     represent a proactive and timely source of referrals.

�    GET REFEIUVILS FROM SUR~AGENCIES;                     In New York, the medical
     board is in the same division of the Department of Health as the hospital and
     nursing home suxvey agencies. These agencies occasionally become aware of
     quality-of-care problems for physicians. Because the agencies are in the same    ._
     division, the board receives referrals for these problems quickly and can follow
     up on them easily. In California, a proposed initiative would make it easier for
     the State’s long term care ombudsmen throughout the State to report quality-
     of-care problems to the medical board.

�    REQUIRE REPORTING FROM MEDICAL SCHOOLS AND RESIDENCY
     PROGRAMS: The Nevada medical board, which requires medical residents to
     have licenses, mandates that medical schools and residency programs report
     disciplina~ actions taken on students and residents. In one case, the board
     revoked the license of a resident who had been placed on probation by a
     program.




                                         5
ISSUE:        III order to respond quickly and effectively to important compkdnts and
              to not waste resources on groundless or unimportant -        State
              medical boards need to make wise decisions about which cases to
              pursue.

QUESZTOiW How can Stak medkd boanis that receive a large number of complabus
          dkhguidz signijiaq actiwzabk qua@ pmbiimu fium mihor or
          nonmenbrbus iwua?

PROMISING APPROACHES:

  �   ESTMLISH       FORMAL
      PRIORITIZATION SCORING;                            PRIORX17Z+i170N
                                                                       SYS~
       Wisconsin is testing a formal priority
                                                  WUconsin b drafi pn”on”tization system
       evaluation system for complaints.
                                                  assigns points as follows:
      Each complaint is screened by a staff
      attorney. The attorney decides if the       �7ke conduct could result in:
      board has jurisdiction over the case.           Death or permanent impairment
      If it does and the complaint falls into         limiting major [ife activity --30
      one of a number of specific                     Tempora~ impairment [imiting major
                                                      i~e activity --20
      categories, such as sexual misconduct,
                                                      Tempora~ impairment not limiting
      discipline by another licensing                 major life acn”v@ --10
      authority, or suspension of hospital            Minor impabment --5
      privileges, the complaint will be          � Complaint involved:
      investigated. If the complaint does             Death of patient --20
      not fall into one of the categories,            Permanent impairment [imiting major
                                                      life activity -- IO
      the complaint is reviewed by three
                                                      Temporaq impairment limiting major
      board members and the Department                Ire activity -- S
      of Regulation and Licensing                dMsrepresentation       or j?aud:
      Secretary to determine if it should be         If pattern or over $1,000--20
      investigated. All complaints that will         If no pattern and less than $1,000, but
      be investigated are then given                 significant -- IO
                                                     Relatively minor --5
      priority scores (see box). Complaints
                                                 . Violation of a specific prohibition in the
      with high scores are investigated              medical practice act such as divulging
      sooner than lower-scored complaints.           privileged matters --10 each
                                                 �ore than 3 previous complaints --10
 �    USE CONTRACT P~SICL4NS              OR     �One to three previous complaints --5
      STflF NURSES TO SET                        4Xore than one patient affected --10
                                                 �A!coho[ or drug abuse, physical or mental
      PRIORITIES AMONG
                                                     impairment --5
      COMPLANTS:         California hires
      contract physicians ‘to screen quality-
      of-care cases after staff members
      gather the medical records associated with the complaint. The contract
      physicians write reports on the cases and recommend whether to dismiss or
      investigate the cases. In Ohio, staff nurses review quality-of-care complaints to
      provide safeguards against the premature closing of cases. New York has staff


                                           6
nurses who review all incoming complaints. The nurses, with advice from staff
physicians if necessary, identi~ which complaints involve legitimate quality
concerns.

RECRU’, LOCAL PHYMCIANS TO                                                           I



SERK5 ON AD KLSORY                                  PRtNCRJWVZNG       SAV7NGS
COM..~EES        BY OFFERING
                                            F10n2ia h Medical Advko~     Committee
lZ?EM CME CREDIT& In Florida,
                                            saves monq by ciosing rnendess cases
the board and the Department of             before thty are reviewed by expen
Professional Regulation recruit local       consultants.   Z4e average cost of a MC  ~
physicians to serve on a medical            review is $49, compared with $305 for an ~
advisoxy committee (MAC). The               erpert review.
committee meets over weekends to
evaluate complaints and make
recommendations about whether to investigate or drop them. The physicians
serving on this committee get continuing medical education credits in return for
their efforts. The board has found this an effective and low cost way to get         ._
medical input prior to investigating a case (see box).

GATHER A BOARD PANEL TO SCREEN COMPLAINT                    Magdand

convenes weekly a review panel composed of medical board members and staff

to screen pending complaints. By combining medical, legal, and investigative

expertise, the panel makes immediate decisions about whether to investigate

the complaints.

P~ORIT.IZE INVESTIGATION OF MALPRACTICE CLAMS:                     States that
receive reports of all malpractice claims generally do not launch full
investigations of those reports. Rather than discarding all such reports, the
Texas board uses a scoring system much like Wisconsin’s (see page 6). Points
are awarded to each report based on the number of recent claims against the
physician involved, amounts of payments, physician specialty, and practice
setting (urban vs. rural). The point total determines whether a full investigation
is launched and the priority given to any such investigation.




                                     7
                          INVESTIGATION

ISSUE:         When investigating QC cas~ boards often need to gather evidence that
               demonstrates multiple acts of negligence or incompetence. Obstacles
               include difficulty selecting records of patients other than the
               complainan~ reluctance by physicians to cooperate in investigatio~ and
               the limitations of relying solely on medical records to determine
               competence.

QUESITON: How can State medical boati gather suj@iknt and credibk eWencg
                   �


          pmtudMy to demomtmte mdii@ prvbkms or incom~tmce?

PROMISING APPROACHES:

      CONDUCT REVTEWS OF ENTIRE PRACTICE IN RESPONSE TO
      COMPLAINTS;         Investigations of single complaints in Maryland may lead to                --
      reviews of physicians’ entire practices. Peer review committees visit respondent
      physicians’ offices, examine samples of medical records, review procedures and
      safeguards in the offices, and test the respondents’ medical knowledge and
      judgment.

      REWEWA LARGE NUMBER OF
      PATIENT RECORDS: Success in                           SVMW5A!AAUZiYOIUTY
      quality-of-care cases often depends
                                                    Kq statuto~ language in New York allows
      on broadening the scope of                    the State to conduct record reviews:
      investigation beyond the original
      complaint. New York board staff               Aecn”on 230. 10(iv) of the Public Health
      have the explicit legislative authority    II Law   specifies: “The director, in addition to
      to conduct reviews of physicians’             the authority set forth in this section, shall
                                                    be authorized to conduct a comprehensive
      records (see box). Boards in Oregon
                                                    review of patient records of the licensee
      and Minnesota can issue subpoenas             and such ofice records of the licensee as
      for patient records without naming            are related to said determinan”on. ”
      the patients in advance. Investigators
      can request that physicians turn over
      any number of cases that meet
      certain criteria.

         USE INFORMATION FROM HOSPIZALS: The New York board identifies
         patients for record .reviews by using the Statewide hospital discharge database
         (SPARCS). This database contains clinical and financial information for each
         hospital stay in the State and identifies the hospital, patient, and physician
         involved. From this database, the investigative staff can get preliminary
         information about all of the respondent physician’s cases that are similar (in
         terms of diagnosis or procedure) to the complaint. The State can then gather
         and examine specific patient records from a sample of these discharges. Also,


                                             8
    the State mandates reporting of all incidents in hospitals which result in
    unexpected death or injuV. Because many incidents do not involve
    substandard care, these reports are not often used to start investigations.
    However, they frequently provide evidence that supports the complaint.

�   GET F!ATXWT NAMES FROM MEDICAID: In California, investigators
    cannot subpoena records without having patient names. They can, however,
    use Medicaid patient records to generate a sample of cases that might
    demonstrate a pattern of poor quality care. The State has legal access to
    medical records of Medicaid patients without getting their consent through
    incorporation in the State Medicaid agency’s quality assurance plan.

�   DISCIPLINE LICENSEES IF
    THEY DO NOT COMPLY W~H                         COMZL4NCE FW7TlBO-                 ORDERS
    BOARD ORDERS: In Oregon,
                                                Oregon statute requires licensees to compiy with
    the board has disciplined
                                                board orders and requests:
    licensees for not complying with
    board orders to take competency              Jection 677.190 of the Oregon Regulatory
    exams, to be interviewed, or to              Statute specifies: “The Board of Medical
    submit medical records (see box).            Eraminers for the State of Oregon may rejitse
    By virtue of the fact it enforced            to gran~ or may suspend or revoke a license to
                                                practice inued under thti chapter for any of the
    the rule, it is getting much more
                                                following reasons: . . . (18) ?Wlfidly violating
    frequent and rapid compliance                any provision of this chapter or any ru!e
                                          II	
    with requests and orders.                    adopted by the board board orde~ or failing to
                                                 comply with a board request pursuant to ORS         ‘
�   REQUEST INFORMATION                          677.320. . . . (23) Refising an invitation for an
    FROM PROS: In South Carolina,               infonna[ inteview with the board requested
                                                 under ORS 677.415 . ...”
    board staff regularly request
    information on physicians the
    board is investigating for QC
    problems. The PRO, after a 30-day waiting period, must respond to the
    board’s request and provide whatever material they have on that physician.

�   M4P2? PHY31CL4NS T-            COMPETENCY EX4.MS: California regularly asks
    or demands physicians to take competency exams, particularly when the board
    feels a physician’s competence is lacking but does not have enough evidence to
    support such an accusation. The exams and scoring criteria are written by a
    panel of physicians who are familiar with the complaints and investigation on
    the respondent physician. This panel then conducts the exam orally and grades
    it. If the physician, passes the exam, the board must drop the case. If the
    physician fails the exam, the board has a valuable piece of evidence in its case
    or can take immediate action to reeducate the physician. Oregon also
    frequently requires competency exams.




                                         9

ISSUE          States need access to medical expertise in the investigation process in
               order to conduct complete and informed inquiries on quality-of-care
               cases.

QUESZ70N: How can Stite mdkd           bd      involve medically tmined peopk in
          ihveslz”gations?

PROMISING APPROACHES:

  .     WIYE PHXSICMNS ON STAFF Both California and New York use medical
        consultants in their investigative offices. They are full-time, permanent
        employees of the State. These medical consultants often conduct intemiews
        with the respondent and other physicians, assist in directing the course of the
        investigations, and help recruit medical experts to conduct intensive reviews of
        cases.

  �     USE COMM.EES           FROM THE MEDICAL SOCIETY TO CONDUCT                        -–
        INVESTIGATIONS:        Maryland is required to refer all quality-of-care cases to
        the medical society (MedChi) for investigation. The board staff collects basic
        medical records, then sends the complaint and the records to MedChi.
        MedChi, in turn, refers complaints to peer review committees organized by
        county or specialty societies throughout the State. The committees recruit
        volunteers to review either single cases or entire practices (see p. 8). When a
        review is complete, MedChi must deliver to the board a comprehensive report
        evaluating the case and must make recommendations as to what action (if any)
        the board should take. Although the Maryland experience suggests that a State
        medical society can be a promising source of medical expertise, a recent review
        of that experience raised significant resemations about the board’s statutory
        obligation to refer all QC cases to MedChi.4

  �     USE NURSES AND PHYSICL4NASSISTANTS                 AS INSTIGATORS:            The
        Texas board has special classifications for its investigative staff which allow it to
        recruit nurses and physician assistants as investigators. These investigators are
        able to dig deep into medical matters.

  �     CONDUCT INTENSIY13 MEDICAL TUINING FOR INVESTIGATORS:
        California has its own two week training academy for investigators which it



    4See “Sunset Review: State Board of Physician Quality Assurance: An Evaluation
Report Prepared Pursuant to the Maryland Program Evaluation Act,” Department of
Fiscal Sexvices, State of Maryland, October 1991. According to this report, the
delegation of investigative authority has limited the board’s flexibility and control over
cases. Furthermore, the report notes that required medical society control has raised
public concerns that investigations are overly protective or biased to the point where
the board’s credibility has been affected.


                                              10
    conducts twice a year. The State brings in its own medical consultants and
    instructors from the Attorney General’s office to conduct training on the
    handling of medical cases.

�   J4XKE AN INZENSIJL!? RECRUITING EFFORT TO GET MEDICAL
    EXPERTS: In Massachusetts in the late 1980’s, the board actively recruited
    medical experts by sending information to and meeting with leaders of medical
    schools, the medical society, medical specialty associations, and hospitals.
    Because of this effort, the board has been able to maintain a list of medical
    experts (50 -75) in a wide variety of specialties. South Carolina recently mailed
    every licensee a newsletter that included questions and answers about seining as
    a medical expert and a reply coupon. Seven percent of all licensees responded.


.   INVOLVE PROS IN INSTIGATIONS:               When the Arkansas medical board
    needs a peer review in a quality-of-care case, it obtains the medicai records and
    refers the case to the State’s PRO. The PRO, in turn, engages two or three        .=
    physicians in the respondent’s specialty to review the case and prepare a
    summary for the board. The board pays the reviewers approximately $60 per
    hour for their services (reviews for Medicaid or Medicare patient records are
    fkee to the board). Key to the success of this program is the board’s good
    working relationship with the PRO.




                                        11
ISSUE          State medical board investigations must be timely to protect both the
               safety of the public and the rights of the respondent.

QUESZ701W How can State medkai boati          assure that the investigative pmctxs is
          timely?

PROMISING APPROACHES:

  �     REQUIRE P~SICMNS            TO
        RESPOND TO REQUESTS IN A                            RESPONSETO REQUES~
        TIMELY lkL4NNER: One of the
                                                   The Ationa     board h poiiqv requires physicians
        stumbling b~ocks in executing              to respond to a notification of compiaint within
        timely investigations is the length        20 days. Physicians’ responses must inciude
        of time it takes physicians to             copies of patient records and a wn”tten response
        respond to requests for patient            to the compiaint. If the physician does not
        records. Arizona’s statute allows          respond within 20 days, the staff notifies the
                                                   board (who can initiate dticiplina~ action) and     ,
        the board to discipline physicians                                                                 .7


                                                   subpoenas the information j?om the physicia~
        who fail to or refuse to furnish
                                                   The physician has 10 days to respond to the
        information in a timely manner             subpoena before fimther [ega! action k taken
        (see box).

  �     EST~LISH       LEGISblT~
        REQUIREMENTS FOR TURNAROUND OF lVIZ’STIGATIONS:                     The
        Maryland board, which refers all quality-of-care cases to the medical society for
        investigation, requires a complete investigation within 90 days. The medical
        society may request a 30-day extension in writing. The State legislature in
        Michigan has proposed a new requirement that the Department of Licensing
        and Regulation complete its investigations within 45 days (with the possibility of
        a 30-day extension upon request to the board).

  �     USE PARAPROFESSIONAL           STAFF TO GATHER MEDICAL RECORDS: In
        California, consumer semice representatives, who are not trained as
        investigators, gather basic medical records early in the investigation process.
        Investigators then do not have to spend large amounts of time tracking down
        medical records and have more time to do intensive investigation work.




                                              12
ISSUE:       State medical boards’ decisions about whether to dismiss or pursue cases
             further after investigation are crucial to their credibility and success in
             prosecuting cases.

QUESZ70JV: How can State medical boati assure that they are neither prosecuting
           cases that have no med nor dimiwikg impo@mt cases?

PROMISING APPROACHES:

      13XVE CASES SCREENED BY ~0             MEDICAL REVIEWERS PRIOR TO
      DECIDING TO PURSUE CASES FURTHER: h California, the district offices
      recruit two physicians -- an academic physician who is an expert in the
      respondent’s specialty and a local physician with a practice similar to the
      respondent’s -- to review each case and make recommendations on its
      disposition. By getting two perspectives that are often vexy different, the offices
      can double-check facts and confirm or question conclusions.
                                                                                                 .—
      GATHER REWEW PANELS WpH MEDICAL, LEGAL, AND
      INSTIGATIVE        EXPERTISE TO DISPOSE OF CASES: Maryland convenes
      weekly review panels consisting of board members, investigative staff, and
      lawyers from the Attorney General’s office to review investigative reports from
      the medical society and decide how and whether to pursue the case. Oregon
      has a similar committee which meets monthly. These multidisciplinary panels
      allow the boards to make decisions based on medical and legal merits of cases
      and allow investigators to provide valuable input and explanation. They also
      assure that medical records that will be used as evidence are in order and are
      legible.
                                               r­
      P~PARE       A HANDBOOK TO
      GUIDE PEER REV7EWERS:                      S/lh4PLEPRACZ7CEIUZKWWRHVRT
      By providing explicit instructions
                                              Maryla@ in its peer review handbook includes
      to peer reviewers, Maryland and         a sample practice review report. 77i3 sampleis
      New York assure that there is           an example of what the State expects its peer
      greater consistency in reviews and      reviewers to complete and includes sections on
      that all important information is       information gathered reasons for referra~
      covered. Topics covered in New          biographical information, background
                                              information, qua~eriy review notes, discussion
      York’s peer review handbook
                                              and conclusions, recommendations,    and case by
      include immunity, confidentiality,      case descn”ptions.
      investigations and hearings, stages
      of expert review, the opinion, and
      reimbursement.    Maryland’s
      covers similar topics and includes guidelines for practice review and sample
      worksheets, letters, reports, and subpoenas (see box).




                                              13
         NEGOTIATION/PROSECUTION

ISSUE          To represent cases effectively against respondents’ attorneys who are
               often very experienced malpractice litigators, States need prosecutors
               who are familiar with medical practice and terminology to handle QC
               cases. They also need hearing officers who a follow the arguments of
               both sides and make fair rulings.

QUESZ70M How can State medical boamk get rqydhr access to prosecuting attorneys
         and hearing o~em who have the knowkdge and skilk necessa~ to handle
         W@-ofxwe      cases?

PROMISING APPROACHES:

        hMKE A~ORNEYS         AND HEARING OFFICERS ON STAFF Texas has
        prosecuting attorneys on staff to the board. These lawyers are available full­ -=–
        time and acquire substantial expertise in medical competency cases. It is also
        important for boards to have hearing officers who are knowledgeable about and
        experienced in the law of medical discipline and readily available. In Ohio,
        hearing officers are hired by the board. In Wisconsin, they are employed by
        the Department of Regulation and Licensing, which includes the medical board.

        EiXKE A~ORNEYS         DEDICATED TO MEDICAL BOARD CASES: If the
        board cannot hire attorneys on its own, it can still obtain full-time prosecutors.
        The New York board is located administratively within a large Department, and
        teams of lawyers are assigned only medical board cases. In Maryland and
        California, where the medical boards must rely on their Attorneys General to
        prosecute cases, there are Assistant Attorneys General devoted full-time to
        medical board affairs.

        TWN HURING           OFFICERS TO H~R MEDICAL BOARD CASES:
        Attorneys in Maryland stressed the importance of holding hearings on QC cases
        before administrative law judges (AIJs) who are comfortable with medical
        issues. A senior ALJ there brought to the job her experience hearing medical
        cases for CHAMPUS, the military’s health insurance plan. She believes that
        ALJs without extensive medical backgrounds can handle quality-of-care cases
        well, but only with proper training on terminology and the reliability of medical
        texts. She has compiled a manual for ALJs new to medical board cases that
        covers these and other topics.




                                             14
ISSUE         Quality-fare    cases are timeumsuming and costly to litigate. Medical
              boards can conseme resources if they reach desirable outcomes through
              consent agreements instead. Boards must no~ however, allow public
              safety to be compromised by weak settlements.

QUES7TON: How can State mdkd          boati   encourage and facihte   fau and flective
          conwnt agreemenG?

PROMISING APPROACHES:

        SEITLE MINOR CASES BEFORE FULL INSTIGATION                         In Wisconsin,
        committees of two board members (the board member who has been involved
        in advising the investigators and a specialist in the respondent’s field) try to
        settle some cases before launching a full investigation. The meetings involve
        the committee and the respondent (whose legal counsel does not usually
        attend). The board pursues early settlement only when both sides agree on the
        facts of the case and the infraction is relatively minor. The board settles wo or.-
        three cases a month this way. Commonly, the settlement results in reprimands
        or requirements for continuing medical education. This process is faster and
        less expensive than formal settlements or hearings.

        GET BOARD MEMBERS, ESPEC’L4LLY PHYSIC’HNS, INVOLVED IN
        SETTLEMENT NEGOTMTIONS:               Medical board staff in Maryland, Texas,
        and Minnesota emphasized the importance of having physician members attend
        settlement conferences. They say that respondents seem less threatened and
        more willing to cooperate in negotiations when other physicians are present. In
        these States, the vast majority of formal charges are resolved without a hearing.

        DRAW UP CONSENT AGREEMENTS BEFORE MEETING WITH
        RESPONDENTS:       Rhode Island medical board staff prepare a draft consent
        order and send it to the respondent in advance of the conference. If not
        agreed to by the respondent, this document at least seines as a starting point
        for negotiations.

        REQUIRE MEDL4TED SE~LEMENT               CONFERENCES FOR CERTAIN
        CASES: In California, every time a hearing is slated to last at least five days,
        the parties have to meet for a settlement conference. An ALJ listens to both
        sides’ arguments, presents proposed solutions, and mediates to try to get a
        settlement on the case. Even when this conference does not result in a
        settlement, the Attorney General’s Office believes it often starts both sides
        thinking about settlements and induces them to settle at a later point prior to
        the hearing.

        ESTMLISH       THE FACTS IN ADVANCE OF NEGOTL4TING A SANCTION
        Virtually all quality-of-care cases in Minnesota are resolved after conferences
        involving respondents and Complaint Review Committees (CRC), which include


                                              15
    two physician board members and one consumer member. Each respondent is
    told of the allegations against him or her a month before the conference and
    has the opportunity to respond. If, in conference, the respondent agrees with
    the State on the truth of the allegations, a stipulation can then proceed. In
    South Carolina, a respondent can sign a Memorandum of Agreement
    stipulating the facts of the case and admitting the allegation. A sanction is then
    worked out based on these facts.

�   W~E    DETAILED CONSENT
    AGREEME.NZS AND iktXKE THEM                    A COMIVW.WWS~ CONSENT
    PUBLIC: Stipulation and Orders in
                                                                  ORDER
    Minnesota contain explicit accounts        A recent Stipulation and Order in
    of the patient case histories that         Minnesota ran for 23 pages. It included
    justi& disciplina~ actions, as well as     ail pertinent facts, such as compiete
    the disciplinary measures imposed.         prescribing histories for six patients, and a
    All of this information becomes a          seven-step course of remedial action. The
                                               remedy included three specific education
    public document, and is released to                                                        --
                                               courses, supervision by another physician,
     the press. In this manner, the            quatierly meetings with a board member,
     Minnesota board answers the               practice audits, and a $1,500 fine.
     criticism that consent agreements are
    vehicles for respondents to hide their
     behaviors from public and
     professional scrutiny.




                                         16
ISSUE	         Medical board members and staff generally agree that the strongest
               evidence at hearings is convincing and consistent testimony fkom a
               crediile expert witness.

QUESTTOM       Whatcan State medkal boank da to ensure that their expert witmmes
               pmv&ie cleq credible testimony at hetigs?

PROMISING APPROACHES:

  �	   GET TESTIMONY FROM TWO PHYMCL4NS W~H DIFFERENT
       PERSPECTIVES:       Establishing the standard of care solely through the
       testimony of experts who practice in settings quite different from respondents
       may not be appropriate. For example, using physicians who practice at major
       teaching hospitals to comment on the care provided by community-based
       respondents may not adequately account for issues in community practice. In
       California, in every quality-of-care hearing, two physicians testi~ -- one whose
       practice is very similar to the respondent’s and one who is an academic expert.           .-

  �    PRO~DE CLEAR
       INSTRUCTIONS FOR                J5XC~       FROiUNEW YORK’S 9GUWlZllV15SFOR
       EXPERTS: The strength                            EXPERT0PMON9
       of an expert’s testimony        �Your opinion shouki be expressed ‘to a reasonable
       will likely be determined       medical certainty, n if possible.
       to a great extent by the        dfake your opinion readi~ understandable to kzy people.
       strength of the expert’s        �Avoid using vague language such as “inadequate” or “it
       review and written              would have been heipfil if ....”
                                       . You shouid not use the terms negligence or
       opinion. The instructions
                                       incompetence.     Zhese are legal conclusions based on
       that medical boards give        specific legal definitions.
       on conducting an expert
       review can help experts
       craft their opinions so as
       to be useful at hearings. New    York has prepared helpful instructions (see box).

  �	     EMPHASIZE THE POTEN7Z4L DUTY TO TESTIFY WHEN SOLICITING
         EXPERT OPINIONS: At one time, the Minnesota medical board found that it
         was investing time and money in having expert consultants review cases and
         form strong opinions, only to have the experts refuse to testi~ at hearings
         about those cases. It now makes clear before contracting with an expert that
         testimony, when necessary, is an essential part of the expert’s obligation.

  �	     RECRUIT HIGHLY RESPECTED EXPERTS BY PAYING THEM WELL:
         Reputation of experts often has great significance to the credibility of
         testimony, particularly in appeals. Minnesota has found that paying physicians
         their going rates (up to $350 per hour) makes recruiting renowned experts
         easier.
ISSUE          Medical board prosecutors mus~ before arguing that a respondent
               provided substandard care, establish the relevant prevailing standard of
               care. Because hearing panels include nonphysicians or physicians
               unfamdiar with the specialty involved and expert witnesses representing
               the board and the respondent often present conflicting testimony,
               establishing StZIKhiS is diffxuk



QUESZ70N: How can State medkal bod pmsecuttm estabkh prevailing stan.durukof
          care h addition to pmtig +   ~      ttdmony?

PROMISING      APPROACHES:

  �     kOIVE A PRACT~IONER    IN WE RESPONDENT’S SPECMLTY           ON THE
        H~NG      PANEL: Hearing panels in New York consist of two physician
        members and one consumer member. In quality-of-care cases, one of the
        physician members is usually a practitioner in the respondent’s specialty. (The
        board’s large size makes this possible.) This physician’s training and experience            __
        allows him or her to probe and evaluate the testimony of experts to determine                 -
        whether the conduct alleged constitutes substandard care.

  �     REFER TO WR17TEN                                                                        i\
        PUCTICE        PARAMETERS AS                     ADMNISIRAIWE          RULES
                                                                                                1
        THEY BECOME AVAILABLE:
                                               Oregon has an admimk?ative rule that specijies   ~
        Written standards have potential       acceptable use of amphetamines for obese         I
        for alleviating the difficulties      peopie. Physicians who violate thti nde are       :1
        medical boards face in                 subject to dticipiinary action. The board has
        prosecuting quality-of-care cases.     communicated cieariy and very specifical~ to     ,/
        Some medical boards and medical       physicians what the boundaries of care are for    :
                                               thh type of treatment.   There has been a        I
        societies are working together on                                                       1
                                               dramatic reduction in amphetamine use since      ~
        practice parameters that, if           the rule was established                         /1
        followed, can constitute defenses                                                       ,
        against malpractice claims.                                                             i
        Specialty societies and the
        Federal government are also active in developing practice guidelines. Many
        medical board members and staff argue that written standards are not well
        established enough in most areas to replace expert testimony. Written
        standards might, however, be precise and accepted enough to be helpful in
        some areas including medical record keeping, prescribing of controlled
        substances, and anesthesia. Oregon has established strict parameters in one
        specific area (see box).
                             .




                                               18
ISSUE         Cases that go to hearing can be a huge drain on resources and can be
              very difficult to schedule. Boards owe both the public and respondents
              timely hearings and decisions.

QUESZ70M How can State medical boanik ensure tirndkw           k hearings and dxiiiiw?

PROMISING APPROACHES:

  �     LIMIT THE NUMBER OF BOARD MEMBERS REQUIRED FOR HEARINGS:
        New York, which has 169 board members spread across the State, uses only
        three board members at each hearing. The full board never hears or votes on
        individual cases. While limiting the number of board members involved is a
        necessity for New York, it can be helpful in much smaller States. Vermont,
        which has 14 board members, recently changed its policies to allow as few as
        two board members to hear each case. In contrast to New York, though, cases
        in Vermont are ultimately voted on by larger panels. Some boards have
        removed board members from hearing rooms entirely. In many States,               -—
        administrative law judges hear cases and render opinions, which are subject to    -
        approval by the board. The Florida medical board, which rules on cases only
        after all relevant facts have been agreed to or determined by a hearing officer,
        can issue final rulings on 40 to 50 cases in one two-day board meeting.

  �     PROWDE BOARD MEMBERS WIZH ADVANCE BACKGROUND
        INFOJWL4TIOM Board members in New York used to go into hearings with
        no knowledge of the charges involved. Now they are provided with a statement
        of charges and all relevant medical records a week in advance. This can speed
        up hearings by focusing committee members’ attention on the most important
        issues and allowing them to prepare questions. In Florida, board staff expedite
        decisions by providing board members with copies of all pertinent written
        materials three weeks before board meetings.

  .     IMPOSE TIME LIMIXS ON HEARINGS AND JUDGMENTS: Proposed
        legislation in Michigan would require hearing examiners to conduct a hearing
        within 45 days of receiving a referral. The board would then have 60 days to
        conduct a hearing in which they review the findings of fact and conclusions of
        the law that the hearing officer presented. New York and Vermont require
        their hearing committees to report their recommendations within 60 days of the
        hearings’ conclusion. In California, the board must make a final decision within
        90 days of receiving a proposed decision from the ALJ (they are allowed one
        30-day continuance).

  �     CONDUCT PRE-HEARING CONFERENCES AND ADHERE TO
        TIMEFWES:          Timeframes set in pre-hearing conferences can limit the
        possibility of defense attorneys dragging out the process leading to a hearing.
        In Wisconsin, the AIJ assigned to the case presides over a pre-hearing



                                            19
conference in which all procedures of the hearing, especially timing, are worked
out. The ALJ takes very seriously the timeframes set at these conferences.




                                                                                   -—




                                     20
                           INTERVENTION


ISSUE          State medical boards sometimes receive complaints involving poor­
               qua.lity care that do not compel them to pursue formal sanctions.
               Reasons for these decisions might include a) the evidence is not
               sufficient to sustain formal charg~ b) the poorqudity care seems to
               have resulted from a single lapse in judgment or technical sk@ or c) the
               maximum sanction would not be worth the resources necessary to secure
               it.

QUESZTON: W?@ can State medidal boati do to express tti          concern about the
          PW   of cue pmw      other than pursu@ fond             sanctions?

PROMISING APPROACHES:

  �     HOLD AN OFF-THE-RECORD DISCUSSION BETWEEN THE PHYSICMN                             --
        AND ONE OR MORE BOARD MEMBERS, PHl?SICIXN STAFF MEMBERS,
        OR EXPERT CONSULTANTS:            Research has shmvn that face-to-face
        discussion is the most effective method of changing physicians’ behaviors
        When a board is concerned about the care provided by a particular physician
        but chooses not to press formal charges, it can use the physicians at its disposal
        to explain its concern to the physician who provided questionable care.
        Vermont uses physician board members for this purpose. New York uses
        board members, staff medical consultants, or independent expert consultants.
        California uses medical quality review committees which are regionally
        organized groups made up of 60 percent practicing physicians and 40 percent
        lay people (all are nominated by the medical schools, the board, or medical
        societies).

  �	    WRITE AN EDUCATIONAL LE7TER TO THE PHYSICiXN EXPLAINING
        THE BOARD’S CONCEM.            In conjunction with or instead of the discussions
        described above, boards can put their concerns in writing and send them to
        physicians. These letters need not become public records, although they are
        usually added to physicians’ permanent files. New York, Maryland, and
        California are among the States using this approach. In California, recipients
        of these letters must respond to the board’s concerns in writing. These letters
        can serve as warning signals should further complaints be lodged against the
        physicians involved. With identi~ng information removed they also could be
        used as a preventive measure, educating all physicians about practice patterns
        that the board considers questionable.



   ‘Kathleen N. Lohr (cd.), Medicare: A Strategy for Quality Assurance (Volume I),
Washington: National Academy Press, 1990, p. 292.


                                             21
ISSUE          Physicians who boards find in violation of the medical practice act may
               have poor knowledge and skills in their fields. They need further
               education if they are to continue or resume practice. But not all medical
               schools are equipped for or receptive to training physicians who have
               been identified as substandard- Traditional continuing medical education
               is often perceived as ineffective for these physicians.

QUESITON: How can Sfafe medical bti    adiress educa&nud intmmdons              and
          monilwiiag pmgmms for physicians whom they have dkiplinai?

PROMISING APPROACHES:

  �     REFER P~SICL4NS           TO INDIWX%ALLY-TAILORED           EDUCATIONAL
        PROGRAMS:        An aspect common to educational programs that board staff
        find effective is individual focus. Before providing training or any other
        intervention to physicians who have been disciplined, these programs diagnose
        the physicians’ practice and personal problems and design a course of action to .—
        mee~ their specific needs. ~amples of individually-tailored programs include
        the Remedial Continuing Medical Education Program in Madison, Wisconsin;
        the Physician Prescribed Educational Program in Syracuse, New York; and a
        course in pharmacology taught by a professor at the University of Minnesota.

  �     GRANT IMMUNITY TO
        PROBATION MONITORS: In                LMMXWTYFORPROBA7ZONMOMTORS
        some States, physicians are
                                             ‘Any health care provider..., hospitaL., or
        hesitant to accept assignments to    medical school that pam”cipates in a
        monitor physicians on probation,     monitotig   or remediation program [for the
        fearing lawsuits against them        medical board] shall not be liable for the
        stemming from the actions of the     negligence of the monitored licensee in
        probationers. The New York           providing medical care pursuant to a
                                             monitoring program. ” (New York Public
        legislature addressed this concern
                                             Health Law 230)
        (see box). The law grants
        immunity to monitors and
        requires physicians being
        monitored to carry a minimum of $2,000,000 in malpractice insurance.

  �     USE COMMUN~          HOSPITALS AS l?ETUINING          SITES: A peer reviewer
        at the Maryland medical society suggested that if boards are unable to find
        teaching centers willing to accept physicians in need of oversight and retraining,
        they should establish monitoring programs at community hospitals instead.
        Keys to improvement in practice, this physician said, include not only formal
        educational intementions, but also regular interaction with and feedback from
        peers. Community hospitals can provide this interaction.




                                             22
                                   PREVENTION
      ISSUE          Medical boards are in a position to notice quality-of-care problems that
                     are common or particularly egregious. In order to improve overall
                     quality of care, boards need to fid ways to reduce these problems on a
                     broader scale than they can by disciplining individual physicians.

      QUESZTOM JWat can Stale medical boamk db to mdz physiciims aware of boundtuia
               of acceptabk care in cedk areas of widxp read or egregious pmbknw?

      PROMISING      APPROACHES:
                                                       —
        .     PUBLISH DETAILED,
              ANONXWOUS DESCRIPTIONS                       PUBLISHEDWE           DESCRLPTTOJVS
              OF IMPORTANT CASES: In the
                                                       Included in the am”cles that the Netherlands)
              Netherlands, the courts publish          coum pubi~h are detailed descriptions OF         -
              very detailed descriptions of            �l%e inctient leading to a complaint of poor
              important cases in medical               medical care;
              journals (see box). If medical           �what the complaint was;
              boards published cases in this           �the reasoning of the person complaining
                                                       �the reasoning of the physician who is accused
              manner, they could make clear
                                                       of poor pracn”ce;
              boards’ positions on certain types        �and the reasoning of the court and its @al
               of problems and discourage              dectiion.
               physicians from continuing
               inappropriate practices. Texas
               uses this approach in a limited
               fashion. It prints short summaries of   complaints in a newsletter column titled
               “Illustrative Disciplinary Cases.”

        �     CONDUCT EDUCATIONAL PROGRAMS: In 1984, the Oregon medical
              board helped create an educational and research foundation. The foundation
.d-           conducts programs, workshops, and courses and produces audio cassettes and
              reports on board-identified issues including prescribing of anti-anxiety
              medication and chronic pain management. In 1989, Minnesota conducted
              seven seminars on prescribing issues. There was a minimal registration fee for
              attendees and all attendees received continuing medical education credits.
              Attendance was very high at these sessions.

        �     USE NEWSLEIT’.ERS TO LICENSEES TO DISCUSS IMPORTANT ISSUES:
              Minnesota and California use periodic newsletters and other publications to
              communicate about key quality-of-care issues. For example, Minnesota has
              produced articles on controlling cancer pain and prescribing controlled
              substances. California has a quarterly newsletter that usually addresses
              important patient management topics. A recent newsletter discussed
              combatting breast cancer.



                                                  23
ISSUE:        Many physicians are isolated from peer review because they do not
              practice in hospita& clini~ or other situations where informal and
              formal peer review occur. These physicians can have quality-ofae
              problems that go undetected until a severe incident happens that causes
              a referral to the medical board or a malpractice suit. Even physicians
              who are subject to regular peer review may have particular deficiencies
              in their knowledge or ability that go undetected for long periods of time.

QUEST70M=�HOW Cm State metikcd beds iimtzjj‘ and addrizw quality-of<are
          probkm Wht??l @#Cid7U   we isohxi jium the medical community or
          when they have undekcted &@kncia ih their Pe@ormunce?

  �	   CONDUCT PERIODIC REEXAMINATION                  OF PHYMCL4NS: The New York
       State Advisory Committee on Physician Recredentialing is finalizing a report
       that recommends legislation requiring reexamination of all licensees every nine
       years and reexamination of licensees 70 years old and older every three years.
       Although there are different issues in specialty board certification than in     -  -7




       licensure, it is interesting to note that the American Board of Internal Medicine -
       established a policy of periodic reexamination in 1990. This certification board
       requires all persons certified in 1990 or thereafter to be reexamined every 10
       years.

  .�   AUDIT 7HE PRACTICES OF ISO~TED PHYWCJWVS; The Canadian
       provinces of the British Columbia and Ontario conduct random practice audits
       of physicians, focusing particular attention on elderly and isolated physicians.
       Physician consultants conduct detailed reviews of office procedures, facilities,
       and patient care and then meet with the physician to go over minor
       deficiencies. If the assessors find major problems, a peer assessment committee
       may intefiew the physician also. Physicians often change their practices as a
       result of this face-to-face interaction. Written reviews are forwarded to the
       medical colleges (the equivalent of our medical boards). Although the colleges
       regard their programs as non-punitive, physicians with QC problems are
       referred to retraining programs. Often deficient physicians will voluntarily
       retire or limit their practices after the reviews.




                                           24

                            CONCLUSION

Quality-of-care cases present a major challenge for State medical boards. In this
report we have presented a variety of approaches that boards and their State
governments can take to meet this challenge. Some are minor measures conducive to
quick enactment; others are far-reaching and difficult to implement. Some are aimed
at helping boards operate more quickly, others at enabling them to function more
effectively. Some can be earned out by boards themselves; others require State
legislation. All, we believe, are worthy of consideration.

As we noted in the introduction, it is important to consider each approach we
identified in the context of a State’s own environment. What works well in one State
may not work so well or at all in another. Yet, in closing, we must note that there are
two factors that in all States are indispensable to successful pursuit of QC cases.

One is adequate funding. If boards are to handle QC cases effectively, it is widely     --
recognized that they must have access to a wide range of medical, legal, and
investigatory expertise and to computer and other resources. These are costly. State
medical boards can use physician Iicensure and registration fees to raise the needed
funds, but their State governments must be willing to allow boards to set the fees they
need and to allow the revenue from the fees to be passed on to the boards. As we
have noted in other reports, that is often not the case.

The other factor, which may be the most important of all, is having sufficient will to
make a serious, ongoing commitment to QC cases. State legislators, executives, and
board members themselves must remain firmly rooted in the conviction that the
boards are responsible for protecting the interests of the public, not the physician
community. They must recognize that a more activist board posture in addressing QC
cases will generate some controversy and some pressures to pull back. At such times,
they must provide boards with the support necessary to persevere in carrying out their
responsibilities to the public.




                                          25
.—
                          APPENDIX                    A

    RELATED REPORTS FROM THE OFFICE OF INSPE~OR                         GENERAL


�    “Medical Licensure and Discipline: An Ovemiew,” June 1986 (P-01~                 )

            Identified vulnerabilities associated with licensing of foreign medical
            graduates and significant problems and patterns in discipline.

�    “State Medical Boards and Medical Discipline’ August 1990 (OEI-01-89-00560)

            Assessed disciplinary practices by, among other things, examining key
            changes taking place and impediments to improved performance.

�    “State Medical Boards and Medical Discipline: A State-ByState        Review,”           ‘-
     August 1990 (OEI-01=89-00562)

            Profiled, State-by-State, the authorities and policies relating to discipline.

�    “@dity Assurance Activities of Medical I&ensure Authorities in the United
     States and Cana@” February 1991 (OEI-01-89-00561)

            Provided an ovemiew of the extent and type of quality assurance
            activities being undertaken in the United States and Canada.

�    “Performance Indicators, Annual Reports, and State Medical Discipline: A
     State-By-State Review,” July 1991 (OEI-01-89-00563)

            Profiled on a State-by-State basis the use and content of annual reports,
            focusing on performance indicators relating to discipline.

�    “The Peer Review Organizations and State Medical Boards: A Vital Link
     (Draft):’ August 1992 (OEI-01-92-00530)

            Reviewed the status of PROS’ efforts to provide boards with information
            about substandard medical care.

�     “National Practitioner Data Bank Usefulness and Impact of Reports to State
      Licensing Boards (Draft)~’ October 1992 (OEI-01-90-00523)

            Assessed the utility of National Practitioner Data Bank reports to State
            licensing boards.




                                         A-1
.—
                                    APPENDIX              B

                  MEDICAL BOARDS MENTXONED IN THIS REPORT

Arizona State Board of Medical Examiners          Nau York State Board of Professional Medicd
2001 West Camelback Road, #300                    Conduct
Phoer@ Arizona        85015                       Room 438, Coming Tower Building
(602) 255-3751                                    Albany, New York 12237-0614
                                                  (518) 474-8357
Arkansas State MedicalBoard
2100 Riverfront Drive, Suite 200                  North Qroiina Board of Medieal Examiners
Little Rock Arkansas 72202                        P.O. Box 26808
(501) 324-9410                                    Raleigh, North Carolina 27611-6808
                                                  (919) 828-1212
Medical~        of cdifOrnia
1426 Howe Avenue, Suite 54                        Ohio State Medial Board
Sacramento, California 95825-3236                 77 South High Street, 17th Floor
                                                                                                .-
(916) 920-6393                                    Columbus, Ohio 43266-0315
                                                  (614) 466-3934
Florida Board of Medicine
Northwood Centre, #60                             OregonBoardof MediealExaminers
1940 North Monroe                                 620 Crown Plaza, 1500 SW First Avenue
Tallahassee, FIonda 32399-0750                    Portland, Oregon 97201-5826
(904) 488-0595                                    (503) 229-5770

M@and Board of Physician Quality Asuranee         Rhode Jsland Board of Lieensure and
P.O. Box 2571                                     Discipline
Baltimore, Maryland 21215                         3 Capitol Hill, Cannon Room 205
(410) 764-477’7                                   Providence, Rhode Island 02908-5097
                                                  (401) 277-3855
Massachusetts Board of Registration in
Medicine                                          South Carolina State Board of Medical
Ten West Street, 3rd Floor                        Emminers
Boston, Massachusetts 02111                       P.O. BOX 12245
(617) 727-3086                                    Columbia, South Carolina   29211
                                                  (803) 734-8901
Michigan Board of Medicine
P.O. Box 30192                                    Texas State Board of Medieal Examiners
Lansing, Michigan 48909                           P.O. Box 45805
(517) 373-6650                                    Austin, Texas 78714-9134
                                                  (512) 834-7728
Min.n=ta Board of Medieal&uniners
2700 University Avenue West, Suite 106            Vermont Board of Medicil Practice
St. Paul, Minnesota    55114-1080                 109 State Street
(612) 642-0538                  .
                                                  Montpelier, Vermont   05609-1106
                                                  (802) 828-2673
Nevada State Board of Medieai Examiners
P.O. BOX 7238                                     W-nsin Medieal Fhum.nm ““g Board
Reno, Nevada 89510                                P.O. BOX8935
(702) 688-2559                                    Madison, Wisconsin 53708
                                                  (608) 266-2811



                                            B-1
.7
